Resp. App. 1
PUBLISH
UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT
-----------------------------------------------------------------------

CODY WILLIAM COX,
Plaintiff - Appellant/
Cross-Appellee,
v.
DON WILSON, in his
individual capacity,

Nos. 18-1353 & 18-1376
(Filed August 19, 2020,
nunc pro tunc
May 22, 2020)

Defendant - Appellee/
Cross-Appellant.
-----------------------------------------------------------------------

Appeal from the United States District Court
for the District of Colorado
(D.C. No. 1:15-CV-00128-WJM-NYW)
-----------------------------------------------------------------------

James F. Scherer, Miller & Law, P.C., Littleton, Colorado, argued on behalf of Appellant/Cross-Appellee
Gordon L. Vaughan (Ann B. Smith, with him on the
briefs), Vaughan & Demuro, Colorado Springs, Colorado, argued on behalf of Appellee/Cross-Appellant.
-----------------------------------------------------------------------

Resp. App. 2
Before HARTZ and EID, Circuit Judges*
-----------------------------------------------------------------------

HARTZ, Circuit Judge.
-----------------------------------------------------------------------

Plaintiff Cody Cox sued Defendant Don Wilson, a
deputy in the Clear Creek County Sheriff ’s Department, under 42 U.S.C. § 1983. Cox alleged that when
Wilson shot him in his vehicle while stopped on Interstate 70, Wilson violated the constitutional prohibition
against the use of excessive force by law-enforcement
ofﬁcers. Plaintiff appeals the judgment on the jury verdict against him. He argues that the district court
erred in failing to instruct the jury to consider whether
Wilson unreasonably created the need for the use of
force by his own reckless conduct. We have jurisdiction
under 28 U.S.C. § 1291 and afﬁrm. Although the district court incorrectly stated that the Supreme Court
had recently abrogated this court’s precedents requiring such an instruction in appropriate circumstances,
the evidence in this case did not support the instruction. No law, certainly no law clearly established at
the time of the incident, suggests that Wilson acted

* The late Honorable Monroe G. McKay, United States Senior Circuit Judge, heard oral argument and participated in the
panel’s conference of this appeal, but passed away before its ﬁnal
resolution. The practice of this court permits the remaining two
panel judges, if in agreement, to act as a quorum in resolving the
appeal. See United States v. Wiles, 106 F.3d 1516, 1516, n* (10th
Cir. 1997); 28 U.S.C. § 46(d).

Resp. App. 3
unreasonably up to and including the time that he exited his vehicle and approached Cox’s vehicle.
I.

Background
A. The Shooting

Cox was shot on January 31, 2014, after a car
chase on Interstate 70. It had been snowing so the Interstate was wet, and some parts were snow-packed
or icy. The ﬁrst ofﬁcer to pursue Cox was Clear Creek
County Deputy Sheriff Kevin Klaus. Although Klaus
testiﬁed about his observations during the pursuit, the
only evidence relevant to the propriety of Wilson’s actions is what Wilson observed or what he was informed
of by others. Therefore, our account of what happened
before Wilson joined the pursuit is limited to what was
broadcast on police radio channels that Wilson heard.
The radio trafﬁc indicated a dangerous situation.
It began as Cox’s Toyota pickup passed Exit 235 on the
interstate. The dispatcher said, “[W]e’ve got about
three 9-11 calls.” Aplt. App., Vol. VII at 1566. An ofﬁcer
reported that Cox had “I-70 pretty-well blocked up behind him and he’s having a hard time getting up the
road.” Id. at 1567. The ofﬁcer described the vehicle as
a “Silver Tacoma with damage all over the body and a
camper shell on the back.” Id. Klaus reported that at
about mileage marker 232½, Cox “just wiped out in
the, uh, number one lane. He’s—was all over the road.”
Id. at 1568. Klaus also noted that his police vehicle did
not have a siren. Id. Klaus then reported that near Exit
232 the pickup “got stuck, but he’s trying to get away

Resp. App. 4
again. I’m not going to contact until I get some cover.”
Id. at 1569. He said: “I verbally told the party to turn
off his car. I do have a good look of—at him, and he’s
taking off again. Westbound. All over the road.” Id. An
ofﬁcer reported that trafﬁc was “almost at a standstill”
about 4 miles ahead. Id. Klaus said he needed help
from someone with a siren and reported that there was
“nobody in front of this guy, but we have a lot behind
me.” Id. After the other ofﬁcer reported that he was at
Exit 228, Klaus responded, “Uh, the way he’s driving, I
doubt we’ll make it that far.” Id. Another ofﬁcer stated
that he had “spike strips” (also referred to by ofﬁcers
as stop sticks) and would join the two police vehicles
already at Exit 228. Id. at 1570. Klaus then reported
that Cox was driving 60 miles per hour, then 70, and
then 80 at mileage marker 230½.
After an ofﬁcer reported that westbound trafﬁc
was stopped about a mile and a half ahead, Klaus said,
“[W]e just caught up with this trafﬁc. He is not going
to stop.” Id. Klaus continued, “[W]e’re going to have to,
uh, take some physical action on this vehicle. This guy
has got to be very drunk, and he is not stopping.” Id.
at 1571. Shortly after that, Klaus reported, “We’re in
bumper-to-bumper trafﬁc now at the 229½. He is not
stopping. He’s just showing me a peace sign.” Id. Another ofﬁcer informed the others that he was at the 228
offramp with spike strips.
About that time, Wilson, whose vehicle had a siren,
had caught up with Cox and taken over from Klaus as
leader of the pursuit. For the next mile, trafﬁc became
heavily congested, moving slowly in a stop-and-go

Resp. App. 5
fashion. The pursuit proceeded at speeds between 5
and 15 miles per hour. Wilson observed Cox continue
to drive dangerously. Each time Cox was momentarily
stopped by the trafﬁc, he would wait for an opening and
then accelerate through any gaps in the cars, losing
fraction and ﬁshtailing wildly nearly a dozen times
and coming very close to striking nearby vehicles. He
refused to pull over in response to Wilson’s lights and
sirens or Wilson’s repeated orders over his loudspeaker
that Cox stop his vehicle. Wilson believed that Cox was
not going to stop.
Wilson was able to pull along the right side of
Cox’s vehicle, which was in the left-hand lane about
ﬁve feet from the guardrail, while trafﬁc continued to
move very slowly in a stop-and-go fashion. Wilson had
his window down and motioned for Cox to roll down his
window, which Cox did. But Cox continued to ignore
Wilson’s repeated orders to turn off his engine. On several occasions Wilson observed Cox drop his right hand
down to his right hip; given the circumstances, Wilson
assumed that Cox was reaching for a ﬁrearm. Cox kept
driving forward when possible, rolling up a few feet
each time the trafﬁc moved forward. Wilson believed
that Cox was striking the rear bumper of the car in
front of him, driven by Sarah Kincaid, and pushing her
car forward each time that he pulled ahead. But Wilson
testiﬁed that he was mistaken on this point; he said
that his perceptions at that moment were impaired because he was concentrating on giving Cox instructions
and determining whether Cox had a weapon.

Resp. App. 6
Finally, Kincaid fully stopped her car, requiring
Cox to stop. Kincaid stopped because she thought that
Wilson wanted her to do so. But Wilson and Kincaid
had not communicated at any point and Kincaid kept
the engine running; so Wilson had no way of knowing
that Kincaid was intentionally blocking Cox and would
continue to do so even as trafﬁc moved forward in front
of her.
Klaus stopped his vehicle about 10 feet behind
Cox. By this point Wilson had drawn his ﬁrearm and
pointed it at Cox, again ordering Cox to turn off his
engine. While Cox was boxed in, Wilson believed he
had a brief window of time to get inside Cox’s car and
take the keys out of the ignition. He decided that
prompt action was necessary because he believed that
the next stretch of highway posed increasing dangers
for the chase (for example, there was a crossover area
a mile ahead where Cox could have driven into oncoming trafﬁc), and that Cox could, in the slow-moving
trafﬁc, avoid the stop sticks that police had laid out at
the next exit. Based on the radio transmissions, Wilson
thought that ofﬁcers providing support for the chase
about a half mile to a mile down the road were not coming to assist him.
Wilson said that when he exited his vehicle, it was
a car length ahead of Cox in the lane to the right. With
his ﬁrearm drawn he moved toward Cox, again telling
Cox to turn off his engine. Almost immediately, he shot
Cox through the open passenger window, striking Cox
in the neck. The shooting incident, from the time Cox’s
vehicle came to a complete stop to the time that Wilson

Resp. App. 7
shot Cox, probably took about a minute.1 The shot to
the neck rendered Cox quadriplegic.
There was no dispute at trial regarding Wilson’s
knowledge of the police radio trafﬁc before he took over
the lead of the pursuit; nor was there any dispute regarding the stop-and-go nature of the trafﬁc once he
took the lead, Cox’s dangerous driving, or Cox’s refusal
to comply with Wilson’s repeated orders for Cox to
turn off his engine. But the eyewitness trial testimony
about the moments immediately preceding the shooting was not entirely consistent. Wilson claimed that
before he stepped from his vehicle onto the highway, he
witnessed Cox roll his car forward and backward twice.
When he stepped onto the highway, Cox had backed up
to a point completely behind his patrol car. He said that
he shot Cox because Cox attempted to drive forward
and to the right, toward his patrol car, in a manner that
caused him to believe that he was going to be crushed
and perhaps killed between the two vehicles. Klaus,
however, testiﬁed that Wilson stopped his patrol car
right next to Cox’s car, and that Cox moved his car only
once (a foot backward and then a foot forward) after
coming to a complete stop behind Kincaid. Kincaid
1

The duration of the incident, from the time that Cox’s car
came to a complete stop to the time of the shooting, is somewhat
uncertain. Klaus testiﬁed that he watched Cox’s stopped car for
less than a minute before exiting his car, and that Wilson shot
Cox about four seconds later. Wilson testiﬁed based on the radio
transmissions that the incident took about one minute and 15 seconds. Kincaid testiﬁed that the incident took “seven and a half
minutes,” Aplt. App., Vol. I at 181, but admitted that her perception was affected by the stress of the moment.

Resp. App. 8
testiﬁed that Wilson had not fully exited his vehicle
when he shot Cox, and Cox had not moved his vehicle
after stopping behind Kincaid with Wilson to his right.
Cox testiﬁed that he had no memory of the car
chase or the shooting incident except that he recalled
a silhouette of a person who came up to his window
while he was stopped in trafﬁc, he heard some words,
and he hit the vehicle in front of him before losing consciousness.
B. Procedural History
Cox ﬁled suit in the United States District Court
for the District of Colorado asserting a single claim under 42 U.S.C. § 1983: namely, that his shooting constituted the use of excessive force in violation of the
Fourth Amendment’s protection against unreasonable
seizure. Wilson asserted the defense of qualiﬁed immunity.
There have been two jury trials on Cox’s claim.
The ﬁrst jury returned a verdict in favor of Wilson, but
the district court vacated the judgment because of misconduct at trial by defense counsel (who has since been
replaced) and ordered a new trial. After Cox rested his
case in the second trial, Wilson moved under Fed. R.
Civ. P. Rule 50(a) for a judgment as a matter of law on
his qualiﬁed-immunity defense. He renewed this motion at the close of evidence, but the court denied the
motion. The second jury also rendered a verdict in favor of Wilson.

Resp. App. 9
Cox raises only one issue on appeal. He contends
that the district court improperly failed to instruct the
jury that it could consider Wilson’s reckless conduct
before the shooting in determining whether the shooting violated the Fourth Amendment. In his response to
Cox’s appeal and in support of his own cross-appeal,
Wilson argues that the district court committed several errors during the trial. But because we afﬁrm the
judgment in Wilson’s favor, we need not address those
matters.
II.

Discussion

In an excessive-force case, as in other Fourth
Amendment seizure cases, a plaintiff must prove that
the ofﬁcer’s actions were “objectively unreasonable,”
taking into account the “totality of the circumstances.”
Estate of Larsen ex rel. Sturdivan v. Murr, 511 F.3d
1255, 1259-60 (10th Cir. 2008) (internal quotation marks
omitted). Cox argues that the district court erred in
failing to instruct the jury that in determining the reasonableness of Wilson’s use of force, it could consider
whether Wilson’s own reckless conduct unreasonably
created the need to use such force.
According to Cox, the district court’s mistake was
in changing the unreasonable-force jury instruction
from what the court had used at the ﬁrst trial. The
court’s instructions were almost identical to those it
had previously given regarding what Cox needed to
prove to establish his claim against Wilson. In both trials the court told the juries that the burden was on Cox

Resp. App. 10
“to establish by a preponderance of the evidence each
of the following elements” of his excessive-force claim:
“First: [Wilson] deprived [Cox] of his federal Constitutional right not to be subjected to unreasonable force
while being stopped; Second: [Wilson] acted under the
color of state law; and Third: [Wilson’s] acts were the
proximate cause of damages sustained by [Cox].” Aplt.
App., Vol. VII at 1595. The court then instructed the
juries on the “Factors To Consider When Determining
Whether Plaintiff Has Proven The Elements Of His
Claim.” Id. at 1596. It told the juries that they could
consider whether Cox had proved at least one of the
following (each of which would have sufficed to establish a violation of his Fourth Amendment rights): (1)
“that deadly force was not necessary to prevent [Cox]
from escaping”; (2) “that [Wilson] did not have probable
cause to believe that [Cox] posed a signiﬁcant threat of
serious physical injury to [Wilson] or others”; or (3)
“that it would have been feasible for [Wilson] to give
[Cox] a warning before using deadly force, but [Wilson]
did not do so.” Id. at 1596-97. And the court told the
juries that they should “consider all the relevant facts
and circumstances [Wilson] reasonably believed to be
true at the time of the encounter,” and that the inquiry
“is always whether, from the perspective of a reasonable ofﬁcer on the scene, the totality of the circumstances justiﬁed the use of force at the time of the
seizure.” Id. at 1597.
But the court did make one change to the factorsto-consider instruction given at the first trial, and
that is the basis of Cox’s appeal. The second-trial

Resp. App. 11
instruction excluded one sentence regarding the jury’s
reasonableness inquiry. We set forth in regular type
the pertinent paragraph from the instructions at the
second trial, and italicize the sentence that was included at the ﬁrst trial but not at the second:
The reasonableness of Defendant’s acts must
be judged from the perspective of a reasonable
ofﬁcer on the scene at the time of the seizure,
that is, the shooting. One of the factors you
should consider is whether Defendant Don
Wilson was in danger at the time that he used
force. Defendant Don Wilson’s own conduct
prior to the shooting can be a part of your determination of reasonableness, but only if his
own reckless or deliberate conduct during the
seizure unreasonably created the need to use
such force. The concept of reasonableness
makes allowance for the fact that police ofﬁcers are often forced to make split-second judgments in circumstances that are sometimes
tense, uncertain, and rapidly evolving, about
the amount of force that is necessary in a particular situation.
Aplt. App., Vol. I at 57 (italics), VII at 1597 (regular
type). Cox objected to the instruction but was overruled. The court explained that it thought the deleted
language was legally incorrect and that Cox’s contention that Wilson’s conduct before the shooting was
reckless was unlikely to overcome qualiﬁed immunity.
See Aplt. App., Vol. VII at 1436 (“It’s my view that some
subsequent decisions since the ﬁrst trial call[ ] into
question the continuing viability of that statement and

Resp. App. 12
that would be, in my view, the thinnest grounds that
the plaintiff would have on the qualiﬁed immunity issue.”).
We ordinarily review a lower court’s refusal to give
a particular instruction for abuse of discretion. See
Morrison Knudsen Corp. v. Fireman’s Fund Ins. Co.,
175 F.3d 1221, 1231 (10th Cir. 1999). “That deferential
review is superseded, however, by this court’s de novo
review of the instructions given to determine whether,
in the absence of the refused instruction, they misstated the applicable law.” Id.; see Burke v. Regalado,
935 F.3d 960, 1009 (10th Cir. 2019) (“We review de novo
whether, as a whole, the district court’s jury instructions correctly stated the governing law and provided
the jury with an ample understanding of the issues
and applicable standards.” (internal quotation marks
omitted)). Wilson argues that we should review the denial of the requested instruction for abuse of discretion, while Cox argues that our review is de novo. But
we need not resolve that dispute because on de novo
review we hold that the instruction would have been
improper in light of the evidence.
There is some Supreme Court authority supporting the district court’s view of the law. In City &
County of San Francisco, California v. Sheehan, the
Court stated that a plaintiff could not “establish a
Fourth Amendment violation based merely on bad tactics that result[ed] in a deadly confrontation that could
have been avoided.” 135 S. Ct. 1765, 1777 (2015) (internal quotation marks omitted). “[S]o long as a reasonable officer could have believed that his conduct was

Resp. App. 13
justiﬁed, a plaintiff cannot avoid summary judgment
by simply producing an expert’s report that an ofﬁcer’s
conduct leading up to a deadly confrontation was imprudent, inappropriate, or even reckless.” Id. (original
brackets and internal quotation marks omitted).
Two years later, County of Los Angeles, California
v. Mendez rejected the Ninth Circuit’s “provocation”
rule, which had “permit[ted] an excessive force claim
under the Fourth Amendment where an ofﬁcer intentionally or recklessly provokes a violent confrontation,
if the provocation is an independent Fourth Amendment violation.” 137 S. Ct. 1539, 1546 (2017) (internal
quotation marks omitted). “The rule’s fundamental
ﬂaw,” as the unanimous Court explained, was that it
“use[d] another constitutional violation to manufacture an excessive force claim where one would not otherwise exist.” Id. The rule went beyond the “operative
question in excessive force cases,”—“whether the totality of the circumstances justiﬁe[d] a particular sort of
search or seizure,” id. (internal quotation marks omitted)—and instead “instruct[ed] courts to look back in
time to see if there was a different Fourth Amendment
violation that [was] somehow tied to the eventual use
of force,” id. at 1547.
But Mendez made clear that it was not deciding
the validity of the proposition of law stated in the sentence omitted from the instruction by the district court
in this case. A footnote to the opinion states that the
Court was declining to address the view that assessing
the reasonableness of the use of force requires “taking
into account unreasonable police conduct prior to the

Resp. App. 14
use of force that foreseeably created the need to use it.”
Id. at 1547 n*. And after both Sheehan and Mendez we
held in Pauly v. White that “[t]he reasonableness of the
use of force depends not only on whether the ofﬁcers
were in danger at the precise moment that they used
force, but also on whether the ofﬁcers’ own reckless or
deliberate conduct during the seizure unreasonably
created the need to use such force.” 874 F.3d 1197, 1219
(10th Cir. 2017), cert. denied, 138 S. Ct. 2650 (2018)
(internal quotation marks omitted); see also id. at 1219
n.7 (“This has been the law in our circuit since
1995. . . . The Supreme Court very recently had an opportunity to resolve this issue [in Mendez] but declined
to do so. . . .”).
Nevertheless, the district court did not commit
any error by declining to include the sentence in the
instruction. A party is not entitled to a jury instruction
just because it correctly states a proposition of law. It
must be supported by the evidence at trial. See Farrell
v. Klein Tools, Inc., 866 F.2d 1294, 1297 (10th Cir. 1989)
(“Under federal law it is error to give an instruction
when there is no evidence to support it. There must be
more than a mere scintilla of evidence to support an
instruction. Sufﬁcient competent evidence is required.”
(citations omitted)); Higgins v. Martin Marietta Corp.,
752 F.2d 492, 496 (10th Cir. 1985) (“[A] party is entitled
to an instruction of [its] theory of the case only if the
theory is supported by competent evidence. The evidence introduced at trial must warrant the giving of
the instruction.” (citations omitted)). In this case, including the sentence omitted by the court would have

Resp. App. 15
denied Wilson the qualiﬁed immunity to which he was
entitled. Before addressing the speciﬁcs of this case, we
brieﬂy summarize the doctrine of qualiﬁed immunity.
Qualiﬁed immunity shields public ofﬁcials “from
liability for civil damages insofar as their conduct does
not violate clearly established statutory or constitutional rights of which a reasonable person would have
known.” Pauly, 874 F.3d at 1214 (internal quotation
marks omitted). When a defendant asserts a qualiﬁedimmunity defense, the plaintiff bears the burden of
showing that (1) the defendant violated a constitutional or statutory right, and (2) this right was clearly
established at the time of the defendant’s unlawful
conduct. See id. We have discretion to address these
two prongs in either order, and “[w]e may resolve a case
on the second prong alone if the plaintiff fails to show
a right was clearly established.” Gutierrez v. Cobos, 841
F.3d 895, 900 (10th Cir. 2016).
The law is clearly established for qualiﬁed-immunity purposes only if it was sufﬁciently clear that,
at the time of the public ofﬁcial’s conduct, every reasonable ofﬁcial would have understood that the conduct was unlawful. See District of Columbia v. Wesby,
138 S. Ct. 577, 589 (2018). To make such a showing in
our circuit, “the plaintiff must point to a Supreme
Court or Tenth Circuit decision on point, or the clearly
established weight of authority from other courts must
have found the law to be as the plaintiff maintains.”
Callahan v. Uniﬁed Gov’t of Wyandotte Cty., 806 F.3d
1022, 1027 (10th Cir. 2015) (internal quotation marks
omitted). “[E]xisting precedent must have placed the

Resp. App. 16
statutory or constitutional question beyond debate.”
Mullenix v. Luna, 136 S. Ct. 305, 308 (2015) (internal
quotation marks omitted). The clarity of the law must
be viewed “in light of the speciﬁc context of the case,
not as a broad general proposition.” Pauly, 874 F.3d at
1222 (internal quotation marks omitted).
Here, qualiﬁed immunity did not completely protect Wilson from Cox’s claim. Cox was certainly entitled to an instruction on the unreasonable use of force.
The jury could have inferred from the testimony of Ofﬁcer Klaus and of Ms. Kincaid that, contrary to Wilson’s testimony, Cox had not made any attempt to drive
his vehicle at Wilson when Wilson shot him, that Cox
did not pose a threat of imminent danger to Wilson after Wilson exited his vehicle, and that therefore Wilson’s use of deadly force against Cox was unreasonable.
But the jury found otherwise. And, in light of the doctrine of qualiﬁed immunity, it would have been contrary to law for the jury to hold Wilson liable based on
his conduct before the time of the shooting. Therefore,
it would have been improper to give the jury an instruction that would have allowed it to do so. We explain.
The sentence omitted from the instruction said:
“Defendant Don Wilson’s own conduct prior to the
shooting can be a part of your determination of reasonableness, but only if his own reckless or deliberate conduct during the seizure unreasonably created the need
to use such force.” Aplt. App., Vol. I at 57. Cox sought
the instruction to allow him to base liability on his
claim that, even if Wilson was in imminent danger

Resp. App. 17
when he shot Cox, the only reason Wilson was exposed
to danger was that he unreasonably exited his police
vehicle and approached Cox’s pickup.
At trial Cox called as an expert witness a person
with excellent credentials who testiﬁed that Wilson’s
recklessness created the danger leading to the shooting. The expert opined that Wilson should not have left
his car to approach Cox because of the danger to Wilson once he was on foot on the Interstate and in a vulnerable position between his patrol car and Cox’s
vehicle. He said that Wilson should have remained in
his vehicle and attempted to deescalate the situation,
perhaps waiting for support from additional ofﬁcers.
And he said that once Wilson stepped onto the Interstate, he should have moved to a position of safety at
the rear of his vehicle.
Perhaps it would have been safer for Wilson to remain in his vehicle. But there were other considerations at play. Cox had ignored repeated warnings from
Wilson to turn off his car’s engine. Wilson reasonably
believed that if Cox could continue to drive on the Interstate, he would present a profound danger to other
motorists. Although Cox was temporarily boxed in,
there was no reason for Wilson to believe that this situation would persist for any substantial amount of
time; Kincaid did not turn off her engine and had not
spoken with Wilson or otherwise informed him that
she intended to remain stopped in front of Cox indeﬁnitely. If Kincaid moved forward, Cox could have continued his dangerous driving, which, according to both
Wilson and Kincaid, he appeared intent on doing. And

Resp. App. 18
both Wilson and Kincaid testiﬁed that Cox was repeatedly reaching down for something, which they assumed was a ﬁrearm. If Cox was to be prevented from
further dangerous driving, the most reasonable thing
for Wilson to do may have been to expose himself to
danger in order to disable Cox from driving.
More importantly, even if the jury was persuaded
by the expert’s trial testimony that Wilson had acted
unreasonably in leaving his vehicle, qualiﬁed immunity protected Wilson from liability on that score. As
Wilson frames the issue, the question on appeal is
whether there is:
a controlling case ﬁnding a Fourth Amendment violation due to the ofﬁcer’s recklessly
causing the need to use deadly force, where after participating in a high speed and dangerous chase of a suspect, the ofﬁcer exited his
vehicle during a temporary stop in trafﬁc to
confront the driver with a show of deadly
force?
Aplee. Br. at 49. Cox has not presented, nor are we
aware of, any opinion by the Supreme Court or this
court, or, for that matter, any other court, holding that
an ofﬁcer in similar circumstances acted unreasonably.
It would have been error for the district court to instruct the jury that it could ﬁnd Wilson liable on a
ground for which he was protected by qualiﬁed immunity.
This court recently reached essentially the same
conclusion on an appeal where the issue was the same

Resp. App. 19
as in this case—allegedly unreasonable police conduct
leading to the use of deadly force. In Pauly we reversed
the denial of summary judgment in favor of the ofﬁcers, even though the evidence would support a ﬁnding
of the following events: Two women called 911 late one
evening to report a drunk driver and then began to
tailgate him. See 874 F.3d at 1203. At one point both
vehicles stopped at an exit ramp and the occupants exchanged unpleasantries. See id. The driver felt threatened and drove away (apparently without the women
following him), going the short distance to his rural
home, where he lived with his brother. See id. The
three responding ofﬁcers determined “that there was
not enough evidence or probable cause to arrest [the
driver], and that no exigent circumstances existed at
the time Nevertheless, the ofﬁcers decided to try and
speak with [the driver] to get his side of the story.” Id.
at 1203-04. The ofﬁcers located and then approached
the driver’s home, using their ﬂashlights only intermittently until they neared the front door. See id. at 1204.
The driver and his brother, fearing intruders related to
the prior road-rage incident, asked who was approaching, see id.; the ofﬁcers responded hostilely, yelling
“Hey, (expletive), we got you surrounded. Come out or
we’re coming in,” id. As a result, the brothers, who had
no reason to think the intruders were police ofﬁcers,
armed themselves and shouted that they had guns; one
of the ofﬁcers shot and killed the driver’s brother after
seeing him point a gun in the ofﬁcer’s direction. See id.
at 1205. We held that the ofﬁcers’ reckless conduct—
including approaching the suspect’s home “while it was
dark and raining and, without knocking on the door,

Resp. App. 20
ma[king] threatening comments about intruding into
the home,” id. at 1215—understandably caused the
suspect and his brother to arm themselves, and therefore unreasonably created the need to use deadly force,
see id. at 1211, 1213, 1221. We concluded that the
threat “made by the brothers, which would normally
justify an ofﬁcer’s use of force, was precipitated by the
ofﬁcers’ own” reckless actions, and that therefore the
use of deadly force was unreasonable. Id. at 1221.
We nevertheless held that the ofﬁcers were entitled to qualiﬁed immunity because there was no clearly
established law that such recklessness created liability. Id. at 1223. We explained:
The statement . . . that the reasonableness
inquiry includes an evaluation of an ofﬁcer’s
actions leading up to the use of force, is absolutely relevant in determining whether a police ofﬁcer acted unreasonably in effecting a
seizure, as we illustrated above. But it cannot
alone serve as the basis for concluding that an
ofﬁcer’s particular use of excessive force was
clearly established. . . . Because there is no
case close enough on point to make the unlawfulness of [the shooting ofﬁcer’s] actions
apparent, we conclude that [the ofﬁcer] is entitled to qualiﬁed immunity.
Id. (internal quotation marks omitted).
Pauly illustrates the strength of the protection
provided by qualiﬁed immunity. Unlike Wilson’s decision to leave his vehicle to try to disable Cox’s vehicle,
the impropriety of the alleged actions by the ofﬁcers

Resp. App. 21
before the shooting in Pauly would be apparent to most
laypersons. Yet the Pauly ofﬁcers were protected by
qualiﬁed immunity because of the absence of clearly
established law prohibiting their conduct. So too, here.
Cox argues that Wilson is procedurally barred
from raising qualiﬁed immunity on appeal because his
preverdict Rule 50(a) qualiﬁed-immunity motion was
not followed by a postverdict Rule 50(b) motion. See
Kelley v. City of Albuquerque, 542 F. 3d 802, 817 (10th
Cir. 2008) (“[T]he precise subject matter of a party’s
Rule 50(a) motion—namely, its entitlement to judgment as a matter of law—cannot be appealed unless
that motion is renewed pursuant to Rule 50(b).” (emphasis added) (internal quotation marks omitted)). But
Wilson had no occasion or reason to ﬁle a Rule 50(b)
motion because the jury’s verdict was in his favor. The
motion-renewal requirement of Rule 50(b) applies only
to parties dissatisﬁed with the verdict—that is, appellants. Now, as an appellee, Wilson can defend the judgment on any ground supported by the record, at least
when it is fair to do so. See Feinberg v. Comm’r of Internal Revenue, 916 F.3d 1330, 1334 (10th Cir. 2019), cert.
denied, 140 S. Ct. 49 (2019). There is no unfairness in
afﬁrming on the ground of qualiﬁed immunity Wilson
properly invoked qualiﬁed immunity in the district
court and has fully briefed the issue on appeal.
We also reject Cox’s apparent assertion at oral argument that qualiﬁed immunity is a separate, nonrelevant issue, and not an issue on appeal, because the jury
was not presented with deciding the issue. To begin
with, the argument is untimely. “Arguments that are

Resp. App. 22
raised for the ﬁrst time at oral argument come too late
to merit our attention.” United States v. DeRusse, 859
F.3d 1232, 1240 n.3 (10th Cir. 2017) (brackets and internal quotation marks omitted). Moreover, were we
to consider this argument, it would fail because the
clearly-established-law component of qualiﬁed immunity is not a jury issue. See Griess v. State of Colo.,
841 F.2d 1042, 1047 (10th Cir. 1988) (“[W]hether constitutional rights allegedly violated were clearly established for purposes of qualiﬁed immunity . . . is a
purely legal issue,” and therefore “is appropriate for
resolution on appeal.” (internal quotation marks omitted)).
III. Conclusion
We AFFIRM the district court’s judgment in favor
of Defendant Wilson.

Resp. App. 23
UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT
No. 18-1353 – Appeal
No. 18-1376 – Cross Appeal
CODY WILLIAM COX,
Appellant/Cross Appellee
v.
DON WILSON, in his individual capacity,
Appellee/Cross Appellant
On Appeal from
the United States District Court
for the District of Colorado
The Honorable William J. Martinez
District Court Case No. 1:15-cv-00128-WJM-NYW
APPELLANT/CROSS APPELLEE’S
CORRECTED APPENDIX
(Filed Feb. 20, 2019)
VOLUME I
James F. Scherer (#14291)
MILLER & LAW, P.C.
1900 W. Littleton Blvd.
Littleton, CO 80111
Telephone: 303.722.6500
Facsimile: 303.722.9270
E-mail: jfs@millerandlaw.com
ATTORNEY FOR APPELLANT/CROSS APPELLEE

Resp. App. 24
*

*

*

[record page 1011, lines 13-25 and page 1012, lines 1-9]
Q. And if you go to the next page, line 3 on page
6, there is a – the following statement from Klaus, and
it says, “Uh, we’re going to have to take some physical
action on this vehicle. This guy has got to be very
drunk and he is not stopping.”
What if any signiﬁcance did this transmission
have on your perception of the developing event?
A. At this point, I had already caught up with
them and I had taken over as primary vehicle in the
pursuit and so I’m right behind Mr. Cox. And when
Kevin said that, I believed—I agreed with what he was
saying. I did not think this guy was going to stop. I was
already observing his driving in this stop-and-go trafﬁc. He was shooting into any gap in trafﬁc that he could
ﬁnd and just—just a half a car length or so, he would—
he would go as far as he could towards it. He was ﬁshtailing wildly, losing control of the back of his car, and
he just didn’t seem concerned about the other drivers
out there. They were having to brake very hard to
avoid striking him. I saw many close accidents already.
I just caught up and within just a few minutes, I
had already seen him do that many times.
*

*

*

[record page 1422, lines 4-23]
[MR. VAUGHAN:] But I just wanted, for
purposes of the record, to make clear that the Court –

Resp. App. 25
the Court has considered the provocation theory and is
continuing to take the position that it’s good Tenth Circuit law, for purposes of any record that we might want
to have as to the Rule 50 motion.
THE COURT:

All right. One second.

(Pause)
THE COURT: All right. The response to
your question, Mr. Vaughan, is that my ruling did not
rely on the provocation theory. In my view, there is sufﬁcient evidence to go to the jury on the disputed facts
with respect to facts that directly relate to the availability of qualiﬁed immunity and that—and, therefore,
my ruling does not rely on the provocation theory.
Secondly, there is some question in my mind about
the continuing viability legally under recent decisions
of the Tenth Circuit of that prong or that additional
factor as a consideration under qualiﬁed immunity
and, as a result, the provocation theory factors will not
be included in the jury instructions.
*

*

*

Resp. App. 26
EXHIBIT A to Appellee/Cross Appellant’s Combined Opening-Answer Brief on Cross Appeal (Fed.
Prac. Instr. § 165:24 with District Court’s modiﬁcations
in red-line)
The Fourth Amendment to the United States
Constitution protects persons from being subjected to
excessive force while being [arrested]_[stopped by ofﬁcers police]. In other words, a law enforcement ofﬁcial
may only use the amount of force necessary under the
circumstances to [make the arrest] [conduct the stop].
Every person has the constitutional right not to be
subjected to excessive force while being [arrested]
[stopped by police], even if the [arrest] [stop] is otherwise proper.
In this case, pPlaintiff Cody Cox claims dDefendant [Don] Wilson violated plaintiff ’s his Fourth Amendment rights by using deadly force against plaintiff him.
An ofﬁcer may not use deadly force to prevent a suspect from escaping unless deadly force is necessary to
prevent the escape and the ofﬁcer has probable cause
to believe that the suspect poses a signiﬁcant threat of
death or serious physical injury to the ofﬁcer or others.
Also, the ofﬁcer must give the suspect a warning before
using deadly force, if it is feasible under the circumstances to give such a warning.
In order to establish that defendant___violated
the Fourth Amendment by using deadly force, plaintiff___must prove defendant intentionally committed
acts that constituted deadly force against plaintiff. In
determining whether Plaintiff Cody Cox has prevailed

Resp. App. 27
on his claim of a violation of the Fourth Amendment
for unreasonable use of deadly force by Don Wilson,
you may consider whether he hasIf you ﬁnd that defendant [describe nature of deadly force allegedly by
plaintiff ], then you have found defendant used deadly
force. In addition, plaintiff must proven [at least one of
the following things];
•

that deadly force was not necessary to prevent
Pplaintiff ’s Cody Cox from escapinge; or

•

that dDefendant Don Wilson did not have
probable cause to believe that pPlaintiff Cody
Cox posed a signiﬁcant threat of serious physical injury to dDefendant or others; or

•

that it would have been feasible for dDefendant to give Pplaintiff Cody Cox a warning before using deadly force, but dDefendant Don
Wilson did not do so.

You should consider all the relevant facts and circumstances [leading up to the time of the encounter]
dDefendant Don Wilson reasonably believed to be true
at the time of the encounter. In the end the inquiry is
always whether, from the perspective of a reasonable
ofﬁcer on the scene, the totality of the circumstances
justiﬁed the use of force at the time of the seizure.
The reasonableness of dDefendant’s acts must be
judged from the perspective of a reasonable ofﬁcer on
the scene at the time of the seizure, that is, the shooting. One of the factors you should consider is whether
Defendant Don Wilson was in danger at the time that
he used force. The concept of reasonableness makes

Resp. App. 28
allowance for the fact that police ofﬁcers are often
forced to make split-second judgments in circumstances that are sometimes tense, uncertain, and rapidly evolving, about the amount of force that is
necessary in a particular situation.
Plaintiff must prove dDefendant Don Wilson intended to commit the acts in question; but apart from
that requirement, dDefendant’s actual motivation is irrelevant. If the force dDefendant Wilson used was unreasonable, it does not matter whether defendant had
good motivations. A law enforcement ofﬁcer’s improper
motive will not establish excessive force if the force
used was objectively reasonable.

